Nos. 19-251, 19-255
IN THE

Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
THOMAS MORE LAW CENTER,
Petitioner,
v.
XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF FOR CONGRESSMAN JOHN SARBANES
AND DEMOCRACY 21 AS AMICI CURIAE
IN SUPPORT OF NEITHER PARTY
FRED WERTHEIMER
DEMOCRACY 21
2000 Massachusetts Ave., NW
Washington, DC 20036
DONALD J. SIMON
SONOSKY, CHAMBERS,
SACHSE, ENDRESON &
PERRY, LLP
1425 K Street, NW
Suite 600
Washington, DC 20005

SETH P. WAXMAN
Counsel of Record
CATHERINE M.A. CARROLL
JUSTIN BAXENBERG
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com
NICHOLAS R. WERLE
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ........................................... ii
INTEREST OF AMICI CURIAE................................... 1
SUMMARY OF ARGUMENT ......................................... 3
ARGUMENT ....................................................................... 5
I.

DISCLOSURE REQUIREMENTS IN THE
ELECTIONS CONTEXT SATISFY “EXACTING
SCRUTINY”..................................................................... 5
A. This Court Has Consistently Upheld
Election-Related Disclosure Requirements ....................................................................... 5
B. In Upholding Election-Related Disclosure Requirements, This Court Has
Applied The “Exacting Scrutiny” Test
And Found It Satisfied In Light Of
The Government’s Interests In Deterring Corruption And Fostering Open
And Informed Elections ....................................... 7

II. UNDERMINING THE CONSTITUTIONAL
BASIS OF DISCLOSURE REQUIREMENTS
FOR ELECTION-RELATED EXPENDITURES
WOULD CREATE CONFUSION AND HARM
IMPORTANT GOVERNMENTAL INTERESTS............... 12
CONCLUSION ................................................................. 15

ii
TABLE OF AUTHORITIES
CASES
Page(s)
Buckley v. Valeo, 424 U.S. 1 (1976) ....................... passim
Burroughs v. United States, 290 U.S.
534 (1934) ....................................................................... 5
Citizens United v. FEC, 558 U.S. 310
(2010) ................................................................... passim
Davis v. FEC, 554 U.S. 724 (2008) ........................ 7, 10, 11
Doe v. Reed, 561 U.S. 186 (2010).......................... 4, 6, 7, 11
First National Bank v. Bellotti, 435
U.S. 765 (1978) .............................................................. 9
McConnell v. FEC, 540 U.S. 93 (2003) ..... 3, 4, 6, 7, 11, 14
McCutcheon v. FEC, 572 U.S. 185 (2014) ............. passim
NAACP v. Alabama, 357 U.S. 449
(1958) ...................................................................... 5, 7, 8
LEGISLATIVE MATERIALS
For the People Act of 2021, H.R. 1,
117th Cong. § 4111 ............................................ 1, 13, 14
H.R. Rep. No. 92-564 (1971) ............................................... 8

INTEREST OF AMICI CURIAE1
Congressman John Sarbanes represents Maryland’s Third Congressional District. He chairs the Democracy Reform Task Force, a working group in the
House of Representatives dedicated to advancing reforms that will improve accountability and transparency in government, put the public interest ahead of special interests, and end corruption. To that end, Congressman Sarbanes sponsored H.R. 1, known as the
For the People Act of 2021, which would expand Americans’ access to the ballot box, reduce the influence of
big money in politics, strengthen ethics rules for public
servants, and implement other anti-corruption
measures. H.R. 1 includes the DISCLOSE Act, which
would amend federal election laws to tighten restrictions on foreign money in U.S. elections and
strengthen requirements for corporations, labor unions,
trade associations, and advocacy groups to disclose to
the public their campaign-related expenditures and the
donors who fund those expenditures. For the People
Act of 2021, H.R. 1, 117th Cong. §§ 4111 et seq. Drafted
to be consistent with this Court’s precedent concerning
election-related disclosures, the DISCLOSE Act would
require disclosure only of the largest donors to the biggest spenders, see id. § 4111(a)(1), and would not apply
where disclosure would subject the donor to serious
threats, harassment, or reprisals see id. § 4111(a)(3)(C).

1

No counsel for a party authored this brief in whole or in
part, and no entity or person, other than amici curiae, their members, or their counsel, made a monetary contribution intended to
fund the preparation or submission of this brief. The parties have
consented to the filing of this amicus brief.

2
Democracy 21 is a non-profit, non-partisan policy
organization that works to eliminate the undue influence of big money in American politics and to ensure
the integrity and fairness of our democracy. It supports campaign-finance and other political reforms,
conducts public-education efforts, participates in litigation involving the constitutionality and interpretation
of campaign-finance laws, and works for the proper and
effective implementation and enforcement of those
laws. Democracy 21 has participated as counsel or amicus curiae in many cases before this Court involving the
constitutionality of campaign-finance laws.
Amici take no position on the constitutionality of
the California disclosure requirements at issue in this
case. Amici submit this brief instead to respond to the
suggestion (made by other amici at the certiorari stage)
that the Court should use this case as an occasion to retreat from its precedent upholding disclosure requirements in the election context. Doing so would not only
improperly address issues that are not before the
Court, but would also undermine the anti-corruption
interests that support election-related disclosure laws.
For decades, this Court has consistently upheld disclosure requirements in the campaign context against
First Amendment challenge, recognizing that they
serve substantial governmental interests in informing
voters, deterring corruption, and enforcing other campaign-finance regulations. Casting doubt on that precedent now would create significant uncertainty, threaten the integrity of the electoral system, and make it
more difficult for Congress and state legislatures to
safeguard the transparency of U.S. elections through
measures such as the DISCLOSE Act.

3
SUMMARY OF ARGUMENT
This Court has consistently upheld election-related
disclosure requirements against First Amendment
challenge, and it should take care to cast no doubt on
those precedents in this case. Laws requiring disclosure of the identities of the people and organizations
that pay for election-related expenditures “impose no
ceiling on campaign-related activities and do not prevent anyone from speaking.” Citizens United v. FEC,
558 U.S. 310, 366 (2010) (quotation marks and citation
omitted). Where groups would otherwise inject money
and influence into elections “while hiding behind dubious and misleading names,” disclosure requirements
ensure that citizens can “‘make informed choices in the
political marketplace.’” McConnell v. FEC, 540 U.S.
93, 197 (2003). Transparency in election spending thus
promotes First Amendment values:
“The First
Amendment protects political speech; and disclosure
permits citizens and shareholders to react to the speech
of corporate entities in a proper way.” Citizens United,
558 U.S. at 371. For decades, this Court has therefore
held that election-related disclosure requirements satisfy “exacting scrutiny” and that disclosure, by definition, is a less restrictive alternative to more comprehensive regulations of speech. Id. at 366-367.
This case provides no warrant for revisiting these
holdings. This case concerns only whether the Attorney General of California may require 501(c)(3) charitable organizations to disclose information to the State
about their significant donors. As petitioners repeatedly acknowledge, “[t]his case has nothing to do with elections,” and the 501(c)(3) organizations subject to the
Attorney General’s policy are prohibited from making
any election-related expenditures.
Americans for
Prosperity Found. Pet. 2-3; see also Pet’r Americans

4
For Prosperity Found. Br. 2; Pet’r Thomas More Law
Ctr. Br. 29-31. The substantial government interests
that disclosure requirements serve in the election context are not at issue in this case—indeed, the Attorney
General has “disavowed the traditional interest in public disclosures that has been credited in election cases.”
Americans for Prosperity Found. Pet. 33.
At the certiorari stage, certain amici nevertheless
suggested that the Court should use this case to undercut the validity of election-related disclosure requirements. See Chamber of Commerce Br. 6; National
Ass’n of Mfrs Br. 8-10. The Court should decline that
invitation. Election-related disclosure requirements
have repeatedly been upheld under the “exacting scrutiny” test set forth in Buckley v. Valeo, 424 U.S. 1, 68
(1976) (per curiam), because transparency regarding
the true sources of campaign-related spending serves
the substantial governmental interests in informing the
electorate, deterring corruption, and enabling enforcement of campaign-finance laws. See, e.g., Doe v. Reed,
561 U.S. 186, 196 (2010); Citizens United, 558 U.S. at
367; McConnell, 540 U.S. at 196; Buckley, 424 U.S. at
68. The Court has recognized that disclosure is the
least restrictive means of achieving those ends. See,
e.g., McCutcheon v. FEC, 572 U.S. 185, 223 (2014) (plurality). While Congress is “entitled to conclude that
disclosure [is] only a partial measure,” and that contribution limits ceilings may be necessary “even when the
identities of the contributors and the amounts of their
contributions are fully disclosed,” Buckley, 424 U.S. at
28, the Court’s jurisprudence limiting other forms of
campaign-finance restrictions has taken the backstop
disclosure provides as an essential premise. See, e.g.,
McCutcheon, 572 U.S. at 224 (plurality).

5
Calling this Court’s uniform treatment of electionrelated disclosure laws into question would undermine
the “robust protections against corruption” that disclosure provides, McCutcheon, 572 U.S. at 224 (plurality),
while leaving Congress and state legislatures without
clear guidance on how to ensure transparency through
measures such as the DISCLOSE Act. Whatever the
Court concludes in regard to the California requirements at issue in this case in a non-election-related context—and amici take no position on that question—it
should not undercut its consistent holdings regarding
election-related disclosure requirements.
ARGUMENT
I.

DISCLOSURE REQUIREMENTS IN THE ELECTIONS CONTEXT SATISFY “EXACTING SCRUTINY”
A. This Court Has Consistently Upheld ElectionRelated Disclosure Requirements

Disclosure requirements have been a cornerstone
of federal campaign-finance law for more than a century. See Buckley v. Valeo, 424 U.S. 1, 61 (1976) (per curiam) (discussing Act of June 25, 1910, c. 392, 36 Stat.
822). As long ago as Burroughs v. United States, 290
U.S. 534 (1934), this Court unanimously held that Congress “undoubtedly possesses [the] power” to safeguard presidential elections by requiring public disclosure of political contributions. Id. at 545, 548.
This Court again upheld the constitutionality of
disclosure requirements in the context of federal elections in Buckley. Applying the “same strict standard of
scrutiny” the Court had articulated in NAACP v. Alabama, see Buckley, 424 U.S. at 75 (citing NAACP, 357
U.S. 449, 458, 460 (1958)), and despite striking down
several expenditure restrictions, the Court in Buckley

6
held that disclosure requirements—even for independent election-related expenditures—bore “a sufficient
relationship to a substantial governmental interest” to
survive “exacting scrutiny,” id. at 64, 80. In particular,
the Court emphasized the role of such requirements in
stemming corruption or its appearance and providing
crucial information to “help[] voters to define more of
the candidates’ constituencies.” Id. at 81. The Court
thus concluded that disclosure requirements imposed
“no prior restraint,” but instead constituted a “minimally restrictive method of furthering First Amendment
values by opening the basic processes of our federal
election system to public view.” Id. at 82.
Since Buckley, this Court has continually reaffirmed the value of disclosure to informing the electorate, deterring corruption, and aiding enforcement of
applicable campaign-finance limits. In McConnell v.
FEC, 540 U.S. 93 (2003), eight justices agreed to uphold
the disclosure provisions of the Bipartisan Campaign
Reform Act (BCRA) against a facial challenge, again
emphasizing the governmental interests in “providing
the electorate with information, deterring actual corruption and avoiding any appearance thereof, and gathering the data necessary to enforce more substantive
electioneering restrictions.” Id. at 196. In Citizens
United, eight justices again upheld BCRA’s disclosure
requirements against an as-applied challenge, noting
that “[d]isclaimer and disclosure requirements may
burden the ability to speak, but they impose no ceiling
on campaign-related activities and do not prevent anyone from speaking.” 558 U.S. at 366-367 (quotation
marks and citations omitted); see also McCutcheon v.
FEC, 572 U.S. 185, 223-224 (2014) (plurality) (similar);
Doe v. Reed, 561 U.S. 186, 196 (2010) (upholding state
law requiring disclosure of referendum petition signers

7
under “exacting scrutiny” as substantially related to
the state’s important interest in preserving the integrity of the electoral process).
The Court has thus repeatedly “foreclose[d] … facial attack[s]” on election-related disclosure requirements, McConnell, 540 U.S. at 197, while recognizing
that “identified persons” may succeed in as-applied
challenges if they can establish a “‘reasonable probability’” that disclosure in a particular case would result in
“threats, harassment, and reprisals,” id. at 198; see
Reed, 561 U.S. at 200-202.
B. In Upholding Election-Related Disclosure Requirements, This Court Has Applied The
“Exacting Scrutiny” Test And Found It Satisfied In Light Of The Government’s Interests
In Deterring Corruption And Fostering Open
And Informed Elections
Buckley set forth the “exacting scrutiny” test for
disclosure requirements in the election context:
That standard “requires a ‘substantial relation’
between the disclosure requirement and a ‘sufficiently important’ governmental interest.” …
To withstand this scrutiny, “the strength of the
governmental interest must reflect the seriousness of the actual burden on First Amendment rights.”
Reed, 561 U.S. at 196 (quoting Citizens United, 558
U.S. at 366-367, and Davis v. FEC, 554 U.S. 724, 744
(2008)).
Buckley derived that standard from NAACP v.
Alabama, 357 U.S. 449 (1958), in which this Court recognized that forced disclosure of an organization’s

8
membership rolls may “entail[] the likelihood of a substantial restraint … of [the] right to freedom of association.” Id. at 462. When such a likelihood exists, the
Court asks “whether [the State] has demonstrated an
interest … sufficient to justify the deterrent effect” of
compelled disclosure. Id. at 463. As the Court has
made clear, the central inquiry is whether the scope of
the restraint “is in proportion to the interest served.”
McCutcheon, 572 U.S. at 218 (plurality).
Applying that test, the Court has conclusively established that the governmental interests served by
disclosure in the election context are “sufficiently important” to satisfy the “exacting scrutiny” test and to
outweigh any “possibility of infringement” on the right
to anonymity in association. Buckley, 424 U.S. at 66.
Those interests include informing the electorate, deterring corruption, and gathering data necessary for enforcement of applicable campaign-finance laws. Id. at
66-67. Buckley further held—and this Court has consistently reaffirmed—that in the election context, “disclosure requirements, as a general matter, directly
serve [those] substantial governmental interests.” Id.
at 68. The Court has continued to rely on those interests in upholding disclosure requirements in subsequent cases.
First, “disclosure provides the electorate with information ‘as to where political campaign money comes
from and how it is spent.” Buckley, 424 U.S. at 66-67
(quoting H.R. Rep. No. 92-564, at 4 (1971)). This information “‘insure[s] that voters are fully informed’ about
the person or group who is speaking.” Citizens United,
558 U.S. at 368 (quoting Buckley 424 U.S. at 76).
“‘Identification of the source of advertising’” through
disclosure requirements permits people “‘to evaluate
the arguments to which they are being subjected.’” Id.

9
(quoting First Nat’l Bank v. Bellotti, 435 U.S. 765, 792
n.32 (1978)). Indeed, this interest has only grown in
importance as a justification for election-related disclosures as the Internet has made “disclosure … effective
to a degree not possible at the time Buckley … was decided.” McCutcheon, 572 U.S. at 224 (plurality). As the
Court in Citizens United explained:
With the advent of the Internet, prompt disclosure of expenditures can provide shareholders
and citizens with the information needed to
hold corporations and elected officials accountable for their positions and supporters. Shareholders can determine whether their corporation’s political speech advances the corporation’s interests in making profits, and citizens
can see whether elected officials are in the
pocket of so-called moneyed interests.
558 U.S. at 370 (quotation marks omitted).
Second, “disclosure requirements deter actual corruption and avoid the appearance of corruption by exposing large contributions and expenditures to the light
of publicity.” Buckley, 424 U.S. at 67. Disclosure arms
the public “with information about a candidate’s most
generous supporters” and assists the public in “detect[ing] any post-election special favors that may be
given in return.” Id. And third, disclosure requirements “are an essential means of gathering the data
necessary to detect violations of … contribution limitations.” Id. at 67-68.
This Court has not questioned that these substantial governmental interests are sufficient to support
election-related disclosures. Where the Court has invalidated disclosure requirements, it has done so only
because those interests were not advanced at all by the

10
requirement at issue. See Davis, 554 U.S. at 744 (striking down disclosure requirement that was justified only
as a means to enforce asymmetrical contribution limits
that were held to be unconstitutional). And in applying
the “exacting scrutiny” test to election-related disclosure requirements, the Court has not proceeded to ask
whether the specific required disclosures were narrowly tailored. The Buckley Court instead “note[d] and
agree[d] with appellants’ concession that disclosure requirements certainly in most applications appear to be
the least restrictive means of curbing the evils of campaign ignorance and corruption that Congress found to
exist.” 424 U.S. at 68; see also Citizens United, 558
U.S. at 369 (“The Court has explained that disclosure is
a less restrictive alternative to more comprehensive
regulations of speech.”). In other words, the Court has
held, disclosure by definition is the least restrictive
means of achieving the government’s substantial anticorruption interests relative to direct restrictions of
speech in contribution and expenditure limits. The
Court has not undertaken or required any further inquiry—for example, scrutinizing the dollar thresholds
or timeframes in which disclosure must be made. And
it has never held that a particular disclosure requirement must be as narrow as possible to survive a constitutional challenge.
One amicus brief supporting the petition for certiorari cited Buckley’s holding allowing minor political
parties to bring as-applied challenges to disclosure
rules as evidence of a narrow-tailoring requirement, see
Chamber of Commerce Br. 11 (citing Buckley, 424 U.S.
at 68-69), but that misunderstands the Court’s discussion. The Court there merely recognized that, in some
cases, “the threat to the exercise of First Amendment
rights is so serious and the state interest furthered by

11
disclosure so insubstantial” that a disclosure requirement cannot be constitutionally applied. 424 U.S. at 71.
In such cases, an as-applied challenge can be brought if
the challenger can muster evidence that compelled disclosure would subject them to threats, harassment, or
reprisals. Id. at 71-74; see also Reed, 561 U.S. at 200202. The possibility of such challenges, however—in
which the challenger bears the burden to prove that the
harms caused by compelled disclosure in a particular
case “outweigh[]” the “substantial public interest in
disclosure,” Buckley, 424 U.S. at 72—in no way imposes
a burden on the government in the context of a facial
challenge to demonstrate that a particular disclosure
requirement is as narrowly drawn as possible. Rather,
the Court has repeatedly made clear that “exacting
scrutiny” requires “a substantial relation between the
disclosure requirement and a sufficiently important
governmental interest, [which requires that] the
strength of the governmental interest must reflect the
seriousness of the actual burden on First Amendment
rights.” Reed, 561 U.S. at 196 (quotation marks and citations omitted); see also McCutcheon, 572 U.S. at 196197 (plurality); Citizens United, 558 U.S. at 366-367;
Davis, 554 U.S. at 744; McConnell, 540 U.S. at 201. No
further inquiry into narrow tailoring is necessary because, as the Court has repeatedly acknowledged, disclosure requirements are the least restrictive means of
achieving important governmental anti-corruption interests. Citizens United, 558 U.S. at 369.

12
II. UNDERMINING THE CONSTITUTIONAL BASIS OF
DISCLOSURE REQUIREMENTS FOR ELECTION-RELATED
EXPENDITURES WOULD CREATE CONFUSION AND
HARM IMPORTANT GOVERNMENTAL INTERESTS
This case provides no occasion for reconsidering
any aspect of the Court’s precedent regarding electionrelated disclosure laws. As Petitioners acknowledge,
the requirement at issue here has nothing to do with
elections; the charitable organizations affected by the
disclosure requirement at issue in this case are prohibited from engaging in election spending; and none of the
interests the Court has relied on to uphold electionrelated disclosure requirements is implicated. See
Americans for Prosperity Found. Pet. 2-3; Pet’r Americans For Prosperity Found. Br. 2; Pet’r Thomas More
Law Ctr. Br. 29-31. For example, whereas Buckley and
its progeny have repeatedly relied on the government’s
important interest in ensuring that voters are well informed and not misled by groups hiding behind anodyne names, that interest has no bearing here because
the Schedule B forms provided under the policy challenged in this case are maintained as confidential and
not disclosed to the public. Accordingly, this is not an
appropriate case in which to opine on election-related
disclosure requirements.
Doing so anyway—particularly in a manner that
would cast doubt on the Court’s prior decisions—would
cause significant harm. The Court has recognized since
Buckley that disclosure requirements are the least restrictive means of achieving the paramount interests in
ensuring transparency and accountability and preventing political corruption from overtaking elections without restricting any party’s speech. See 424 U.S. at 68;
see also McCutcheon, 572 U.S. at 223 (plurality); Citizens United, 558 U.S. at 369. Indeed, the Court has

13
expressly relied on the enhanced effectiveness of disclosure in the Internet age as a rationale for striking
down more restrictive means of combatting corruption
or the appearance of corruption. As the plurality explained in McCutcheon, “massive quantities of information can be accessed at the click of a mouse, [and]
disclosure is effective to a degree not possible at the
time Buckley, or even McConnell, was decided.” 572
U.S. at 224. And while a legislature might fairly conclude that disclosure is “only a partial measure” for addressing “the reality or appearance of corruption,”
Buckley, 424 U.S. at 28, the Court’s precedents concerning other regulations of campaign spending have
rested on the premise that robust disclosure requirements would continue to operate, see, e.g., Citizens
United, 558 U.S. at 370. Undercutting the constitutional basis of that assumption would thus threaten to
hamstring an effective and “minimally restrictive”
method of ensuring an informed electorate and battling
corruption in elections. Buckley, 424 U.S. at 82.
Retreating from the Court’s consistent precedent
upholding election-related disclosure requirements
would also sow confusion for lawmakers. Under current law, Congress and the state legislatures can rely
on Buckley and its progeny as clear guideposts to model new and improved disclosure requirements. For example, Congress is now considering the DISCLOSE
Act, which would strengthen requirements for corporations, labor unions, trade associations, and advocacy
groups to disclose the sources of their campaign-related
expenditures on express advocacy, electioneering
communications, and ads that promote, support, attack,
or oppose the election of a candidate. See For the People Act of 2021, H.R. 1, 117th Cong. § 4111 (2021). The
legislation builds on the disclosure provisions of BCRA

14
that this Court upheld in McConnell. See 540 U.S. at
194-199; see also id. at 170 n.64 (upholding against
vagueness challenge the application of regulations to
ads that promote, oppose, attack or support a clearly
identified candidate). The DISCLOSE Act would require disclosure only of donors who gave $10,000 or
more in a two-year election cycle to an organization
that engages in campaign-related spending—and only if
that organization spent more than $10,000 in the aggregate in the election cycle. See For the People Act of
2021, H.R. 1, 117th Cong. § 4111(a)(1). If the organization establishes a segregated bank account from which
it makes all of its electioneering expenditures, then only those who have donated $10,000 or more to that account must be disclosed, see id.; and if the donor designates a donation as not to be used for election spending
(and the organization agrees), the donation is also not
subject to disclosure. See id. The DISCLOSE Act also
includes an exemption from disclosure for any donor
who may be subject to “serious threats, harassment or
reprisals.” See id. § 4111(a)(3)(C).
Under this Court’s settled precedent, these provisions are constitutional. Revisiting or casting doubt
upon that jurisprudence now could cause significant uncertainty and make it more difficult for Congress to
combat corruption and ensure transparency and integrity in elections. As a result, groups “hiding behind dubious and misleading names” would once again have
free rein to inject unlimited amounts of money into
elections with no accountability to voters or shareholders. Citizens United, 558 U.S. at 367 (quotation marks
omitted). Far from advancing First Amendment interests, that result would thwart the First Amendment
values of “opening the basic processes of our federal

15
election system to public view.” Buckley, 424 U.S. at
82; see also Citizens United, 558 U.S. at 370.
CONCLUSION
The Court should avoid an unnecessarily broad ruling that casts doubt on its consistent precedent upholding election-related disclosure laws.
Respectfully submitted.
SETH P. WAXMAN
FRED WERTHEIMER
Counsel of Record
DEMOCRACY 21
2000 Massachusetts Ave., NW CATHERINE M.A. CARROLL
JUSTIN BAXENBERG
Washington, DC 20036
WILMER CUTLER PICKERING
HALE AND DORR LLP
DONALD J. SIMON
1875 Pennsylvania Ave., NW
SONOSKY, CHAMBERS,
Washington, DC 20006
SACHSE, ENDRESON &
(202) 663-6000
PERRY, LLP
seth.waxman@wilmerhale.com
1425 K Street, NW
Suite 600
NICHOLAS R. WERLE
Washington, DC 20005
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007

MARCH 2021

